Sarah Van Hoey
P.O. Box 224
Lenoir City, TN 37771
March I8, 2020
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543

Re:

Steven T. Wnltner and Sarah I/. Walmer v. Commissioner oflnternal Revenue
No. 19 488
Petition for Rehearing of Petition for Writ of Certiorari
RULE 33.1(h) CERTIFICATE OF COMPLIANCE

Dear Mr. Harris:
As required by Supreme Court Rule 33.1(h), I, Sarah Van Hoey (ﬂ<a Sarah Waltner), one
of the petitioners in the above stated matter, declare that Petitioners’ “Petition for Rehearing of
Petition for Writ of Certiorari” contains 2,994 words, excluding the parts that are exempted by
Supreme Court Rule 33 . 1 (d).
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
Executed on March 18, 2020.

Sarah Van Hoey, Petitioner[%7

